<html>
<title> - OPEN HEARING ON THE NOMINATION OF SUSAN GORDON TO BE PRINCIPAL DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE AT THE OFFICE OF THE DIRECTOR OF NATIONAL INTELLIGENCE PRECEDED BY ROBERT P. STORCH TO BE INSPECTOR GENERAL OF THE NATIONAL SECURITY AGENCY, AND ISABEL PATELUNAS TO BE ASSISTANT SECRETARY FOR INTELLIGENCE AND ANALYSIS AT THE DEPARTMENT OF THE TREASURY</title>
<body><pre>[Senate Hearing 115-100]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-100

                     OPEN HEARING ON THE NOMINATION
                 OF SUSAN GORDON TO BE PRINCIPAL DEPUTY
                DIRECTOR OF NATIONAL INTELLIGENCE AT THE
                   OFFICE OF THE DIRECTOR OF NATIONAL
               INTELLIGENCE PRECEDED BY ROBERT P. STORCH
                TO BE INSPECTOR GENERAL OF THE NATIONAL
                 SECURITY AGENCY, AND ISABEL PATELUNAS
               TO BE ASSISTANT SECRETARY FOR INTELLIGENCE
                     AND ANALYSIS AT THE DEPARTMENT
                            OF THE TREASURY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 19, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-418PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>         
         
         
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                 CHARLES SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                             JULY 19, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     3

                               WITNESSES

Storch, Robert P., Nominated to be Inspector General of the 
  National Security Agency.......................................     5
    Prepared statement...........................................     8
Patelunas, Isabel, Nominated to be Assistant Secretary of 
  Treasury for Intelligence and Analysis.........................     5
    Prepared statement...........................................    15
Gordon, Susan M., Nominated to be Principal Deputy Director of 
  National Intelligence..........................................    31
    Prepared statement...........................................    35

                         SUPPLEMENTAL MATERIAL

Cipher Brief article dated July 19, 2017, titled ``The Great 
  Expectations for Susan M. Gordon''.............................    28
Questionnaires for Completion by Presidential Nominees...........    46
Prehearing Questions and Responses...............................    96
Questions for the Record.........................................   140

 
       OPEN HEARING ON THE NOMINATION OF SUSAN GORDON TO BE PRINCIPAL
   DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE AT THE OFFICE OF THE
   DIRECTOR OF NATIONAL INTELLIGENCE PRECEDED BY ROBERT P. STORCH TO BE
   INSPECTOR GENERAL OF THE NATIONAL SECURITY AGENCY, AND ISABEL PATELUNAS
   TO BE ASSISTANT SECRETARY FOR INTELLIGENCE AND ANALYSIS AT THE
   DEPARTMENT OF THE TREASURY

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:06 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, 
Feinstein, Wyden, Heinrich, King, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this confirmation hearing 
to order.
    I understand the Vice Chairman is in the building, so he 
should be here before I finish my opening statement. I'd like 
to welcome all members.
    And I know this is out of the ordinary to do these in the 
morning. But the schedule right now doesn't give us the luxury 
of taking an afternoon as we get ready for our authorization 
bill.
    So I'd like to welcome our witnesses today: Robert Storch, 
President Trump's nominee to be the next Inspector General of 
the National Security Agency; and Isabel Patelunas, the 
President's nominee to be the next Assistant Secretary of 
Intelligence and Analysis at the Department of Treasury.
    Robert and Isabel, congratulations to both of you on your 
nominations. I'd like start, though, by recognizing the 
families that you've brought here with you today. Robert, I 
understand your wife, Sara, is here and your two children 
Charlotte and Hannah. Would you--guys, thank you for your 
commitment to your dad and to your mother, because she has 
traveled extensively with him and is a partner both in life and 
in work, as I understand.
    Sara, you must be a strong woman.
    And Isabel, I believe you brought your husband, Paul, here 
as well as your sons Brian and Brandon, Correct? Good. Just 
Brian. Well, we welcome both of you.
    Both of you have served your country with distinction in 
your previous posts, primarily Department of Justice for you, 
Robert, and CIA for you, Isabel. And we appreciate your 
continued willingness to serve.
    Our goal in conducting this hearing is to enable the 
Committee to consider Mr. Storch and Ms. Patelunas' 
qualifications and to allow a thoughtful deliberation by our 
members.
    Robert already has provided substantive written responses 
to 77 questions presented by the Committee and its members, 
while Isabel has answered 63. Today, of course, the members 
will be able to ask additional questions and to hear firsthand 
from Mr. Storch and Ms. Patelunas in this open session.
    Mr. Storch graduated magna cum laude from Harvard College 
in 1982 and earned his J.D. from Columbia Law School in 1985. 
He began his legal career as a clerk for U.S. District Judge 
William Keller in Los Angeles, California.
    Following his clerkship, Mr. Storch worked at Covington and 
Burling before joining the Department of Justice, where he 
worked for over 24 years. Mr. Storch was an assistant U.S. 
attorney for over 17 years, working on both criminal and civil 
cases.
    Robert held a variety of leadership roles in the U.S. 
Attorney's Office, including anti-terrorism coordinator, deputy 
criminal chief, counsel to the United States attorney appellate 
chief, senior litigation counsel, and civil rights and hate 
crime coordinator.
    In 2012, Mr. Storch joined the Office of Inspector General 
at the Department of Justice, where he served as counselor to 
the IG, the OIG whistleblower ombudsman, and acting deputy IG. 
In 2015, Mr. Storch was selected to serve as DOJ's deputy 
inspector general. And I think you told me when we met that you 
kept the ombud--you kept the whistleblower thing with you. We 
thank you for that.
    Ms. Patelunas graduated from the University of Notre Dame 
in 1989, received her master's in international relations from 
the University of Maryland in 1987. Ms. Patelunas began her 
career at the CIA in 1989 and is a member of the Senior 
Intelligence Service at the CIA, where she served in a variety 
of leadership roles, including deputy director of CIA's Office 
of Middle East and North Africa Analysis and director of 
advanced analysis training program.
    Ms. Patelunas also worked in the National 
Counterproliferation Center and the weapons intelligence 
nonproliferation--Weapons Intelligence, Nonproliferation, and 
Arms Control offices. Ms. Patelunas also completed a rotation 
at the ODNI, serving as the director of the President's daily 
brief staff. Isabel currently is the chair of the CIA's 
Publications Review Board.
    Robert, independent and empowered inspector generals are 
critical to the integrity and the efficient management of the 
intelligence community. I would also note that this is Robert's 
third nomination to a position in under a year, an indication 
of not only bipartisan support, but a commitment to the post as 
well.
    And, Isabel, as you and I have discussed, you've been asked 
to lead the Treasury Department's intelligence arm at a time of 
profound threat and challenge.
    As both of you are aware, we're facing threats from state 
and non-state actors alike and are engaged in a robust debate 
at home on the scope and scale of intelligence collection and 
what authorities are right, appropriate and lawful. I expect 
both of you to support the government's mission to protect the 
Nation in the face of these threats, while maintaining an 
unwavering respect for the rule of law. I have complete trust 
that both of you will lead the community with integrity and 
will ensure that the intelligence enterprise operates lawfully, 
ethically, and morally.
    As I've mentioned to other nominees during their nomination 
hearings, I can assure you that this Committee will continue to 
faithfully follow its charter and conduct vigorous and real-
time oversight over the intelligence community, its operations, 
and its activities. We will ask difficult and probing questions 
of you and your staff, and we will expect honest, complete, and 
timely responses.
    I look forward to supporting your nominations and ensuring 
their consideration without delay. I want to thank you again 
for being here, for your years of service to the country, and I 
look forward to your testimony.
    I'd like to recognize the Vice Chairman for any comments he 
might have.

 OPENING STATEMENT OF HON. MARK R. WARNER, A U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. And welcome, 
Mr. Storch and Ms. Patelunas, and congratulations on your 
nominations.
    Mr. Storch, you have served as Deputy Inspector General of 
the Department of Justice, so I know you understand well the 
functions of the Inspector General. But if you are confirmed as 
the Inspector General of the National Security Agency, you'll 
be charged with overseeing a large and complex and necessarily 
secretive organization.
    Because of the nature of the work of the NSA, you will have 
a higher level of responsibility to ensure that the agency's 
programs and activities are effective, appropriate, and comport 
with U.S. law and regulations. In today's hearing, I would like 
to hear reassurances that you will take this duty on with the 
gravity and sense of purpose it requires.
    We all know the NSA is home to some of the world's greatest 
minds in the field of cryptology. They continue to improve our 
ability to understand the plans and intentions of our 
adversaries in order to protect and defend this Nation. As they 
harness the power of new technology and data analytics, we must 
be careful to ensure that the clearly defined line between our 
adversaries and our citizens is not crossed. Part of your 
charge will be to confirm that it is not.
    I also very much appreciate your background as related to 
whistleblower protections. I know the Chairman's already 
mentioned this. You stated that one of your bedrock principles 
is, quote, ``whistleblowers perform a valuable service to the 
agency and to the public,'' unquote. I agree with that 
sentiment, and I'm not sure that we have given them adequate 
protections, in the IC that they deserve.
    Today, I'll ask you about some of the proposals this 
Committee is considering to enhance those protections, to 
ensure that anyone that does come forward through approved 
processes will not suffer reprisals as a result.
    Mr. Storch, I look forward to today's discussion and 
working with you, if confirmed.
    Ms. Patelunas, your experience at the Central Intelligence 
Agency will serve well if confirmed to the position of 
Undersecretary of Treasury for Intelligence and Analysis. Your 
28-year career at the CIA is impressive and includes a wide 
variety of important positions and responsibilities. If 
confirmed as Undersecretary, you will have significant 
opportunities to continue your contributions to our Nation's 
security.
    This morning, I'd like to talk more about your background 
in threat finance and financial intelligence. The past decade 
has seen a dramatic increase in the leveraging of financial 
tools to counter threats. That includes following the money to 
counter terrorist groups, as well as the use of sanctions to 
influence other Nations' behaviors.
    At the same time, our adversaries are constantly developing 
new and innovative ways to evade our detection. It is vital 
that the United States stay one step ahead of our enemies in 
this regard.
    I'll expect to hear your plans for ensuring that we 
maintain our competitive edge when it comes to collecting, 
analyzing, and responding to matters of financial intelligence.
    Additionally, this Committee is deeply engaged with its 
investigation into Russian meddling in our 2016 elections. 
Treasury has a role in supporting this effort. This morning, I 
want to hear assurances from you that you will fully support 
any request this Committee makes of the Office of Intelligence 
and Analysis.
    Ms. Patelunas, Mr. Storch, I note that you are both, as is 
the nominee that we'll hear from in the next panel, Sue Gordon, 
career public servants. You are both highly qualified for the 
positions to which you have been nominated.
    Today, perhaps more so than in the past, I believe that it 
is especially important to make a point of saying thank you to 
the men and women of the intelligence community for the work 
that they do each and every day to keep our Nation safe. We 
seldom hear about your successes or your sacrifices, but 
members of this Committee see your dedication and hard work. So 
I want to thank both of you for accepting these new 
opportunities to serve our country.
    But I also have something to ask in return. I ask that you 
commit today that you will always speak truth to power by 
giving your best honest assessment and speaking that truth and 
telling it, telling it like it is to those in power, whether 
they want to hear it or not.
    I'll ask for your assurances that you will cooperate fully 
and unreservedly with any requests from this Committee by 
providing documents, e-mails, cables and other materials as 
requested.
    And I'll ask for your promise that, if confirmed, you will 
faithfully represent the professional men and women of the 
intelligence community with dedication and integrity every day 
that you're charged.
    Thank you, Mr. Chairman. I look forward to the hearing.
    Chairman Burr. Thank you, Vice Chairman.
    Mr. Storch, would you stand, please? Would you raise your 
right hand? Do you solemnly swear to tell the truth, the whole 
truth and nothing but the truth, so help you God?
    Mr. Storch. I do.
    Chairman Burr. Please be seated.
    Ms. Patelunas, would you please stand and raise your right 
hand? Do you solemnly swear to tell the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ms. Patelunas. I do.
    Chairman Burr. Please be seated.

   TESTIMONY OF ROBERT P. STORCH, NOMINATED TO BE INSPECTOR 
            GENERAL OF THE NATIONAL SECURITY AGENCY

    Chairman Burr. To you, Mr. Storch--and then I'll come to 
you, Mrs. Patelunas--I'll ask you to answer five standard 
questions that the Committee poses to each nominee who appears 
before us. They just simply require a yes or no answer.
    One, do you agree to appear before the Committee, here and 
in other venues when invited?
    Mr. Storch. Yes, sir.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the Committee and designated 
staff when invited?
    Mr. Storch. Yes, sir.
    Chairman Burr. Do you agree to provide documents or other 
materials requested by the Committee in order for it to carry 
out its oversight and legislative responsibilities?
    Mr. Storch. Yes, sir.
    Chairman Burr. Will you both ensure that your office and 
your staff provide such materials to the Committee when 
requested?
    Mr. Storch. Yes, sir.
    Chairman Burr. Do you agree to inform and fully brief, to 
the fullest extent possible, all members of this Committee of 
intelligence activities and covert action, rather than only the 
Chairman and the Vice Chairman?
    Mr. Storch. Yes, sir.
    Chairman Burr. Thank you.

   TESTIMONY OF ISABEL PATELUNAS, NOMINATED TO BE ASSISTANT 
      SECRETARY OF TREASURY FOR INTELLIGENCE AND ANALYSIS

    Chairman Burr. Ms. Patelunas, the same questions. Do you 
agree to appear before the Committee, here or in other venues, 
when invited?
    Ms. Patelunas. Yes, sir, I do.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the Committee and designated 
staff when invited?
    Ms. Patelunas. Yes, sir.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the Committee in order to carry 
out its oversight and legislative responsibilities?
    Ms. Patelunas. Yes, sir.
    Chairman Burr. Will you both ensure that your office and 
your staff--will you ensure that your office and your staff 
provide such materials to the Committee when requested?
    Ms. Patelunas. Yes, sir.
    Chairman Burr. Do you agree to inform and fully brief to 
the fullest extent possible all members of the Committee of the 
intelligence activities and covert action, rather than just the 
Chair and Vice Chair?
    Ms. Patelunas. Yes, sir, I do.
    Chairman Burr. With that, I thank you, and we'll proceed to 
opening statement. Mr. Storch, you are recognized for your 
statement.
    Mr. Storch. Thank you, sir.
    Chairman Burr, Vice Chairman Warner, and members of the 
Committee: Thank you for inviting me to appear before you today 
regarding my nomination to be the Inspector General at the 
National Security Agency. I believe that this position presents 
an exciting opportunity to further independent oversight at a 
critically important government agency.
    I would like to take the opportunity to recognize my family 
and others who have come to be with me today: my brilliant and 
wonderful wife of more than 25 years, Sara Lord, and our 
children, Charlotte and Hannah, who, as I always tell them, are 
the center of the universe. I would like to thank my other 
family, colleagues, and friends for being here with me today.
    I want to express my great appreciation to my Inspector 
General, Michael Horowitz. I've had the privilege of working 
side by side with him, and I learn from him on a daily basis. 
He provides, I believe, a tremendous example, both as to how to 
conduct vigorous, independent oversight and how an IG should be 
responsive to Congress.
    I also want to thank you, Chairman Burr, for taking the 
time out of your busy schedule to meet with me yesterday. And, 
Vice Chairman Warner, I greatly appreciate the efforts of your 
staff to schedule a meeting as well.
    I'm sorry there wasn't time, given the prompt scheduling of 
the hearing--which, let me quickly say, I appreciate very 
much--for me to meet in advance of the hearing with you and 
with the other members of the Committee. But if confirmed, I 
would welcome the opportunity to meet with each of you and your 
staffs on a regular basis.
    I believe strongly in the importance of Congressional 
oversight, which is particularly critical in an area where so 
much of what happens occurs outside the public eye.
    As this Committee well knows, in 2014 Congress determined 
that the NSA IG should be a presidentially appointed, Senate-
confirmed position, clearly reflecting the importance of 
independent oversight and responsiveness to Congress. I hope 
that, if confirmed, my background would position me well to 
work with the staff of the OIG to meet the challenges of this 
position.
    As detailed in my prehearing submissions, I spent some two 
dozen years working as a Federal prosecutor at two United 
States attorney's offices and at the DOJ here in Washington. 
This taught me a great deal about how to gather and consider 
evidence, about following the evidence wherever it leads, and 
about pursuing allegations and outcomes vigorously but fairly 
and in the interest of justice.
    Immediately following the September 11 attacks, I was 
selected as my district's initial Anti-Terrorism Coordinator, 
working closely with criminal and intelligence components of 
the FBI and other agencies in helping to organize and direct 
our antiterrorism efforts and standing up our first Anti-
Terrorism Task Force.
    In 2012, my wife and I decided to move back to Washington 
and I accepted a position in the front office at the OIG. One 
of the things I came to understand early on is that OIGs are 
part of their agencies, but they're also separate, our 
independent oversight role requiring that we maintain the 
distance necessary for our work.
    I've been involved in reviewing a number of reports, 
examining the exercise of national security authorities by the 
FBI and DOJ as well as their interaction with other parts of 
the intelligence community. I also have participated in the 
deputies' meetings of the IC IG forum and attended its 
conferences.
    If confirmed, I hope that my experiences and perspective as 
a prosecutor and at the OIG would be helpful in working with 
the personnel of the NSA OIG to carry out the significant 
responsibilities entrusted to it by the Congress.
    If confirmed, I would anticipate meeting regularly with 
personnel from across the OIG to facilitate open communications 
and obtain their perspectives. One area that I know to be of 
importance for all OIGs is furthering whistleblower rights and 
protections. As was mentioned, at DOJ we've developed a robust 
program that's built on one bedrock principle: Whistleblowers 
perform a valuable public service to the agency and the public 
when they come forward with what they reasonably believe to be 
evidence of wrongdoing, and they never should suffer reprisal 
for doing so.
    I founded and still serve as chair of the CIGIE working 
group in this area and have been pleased to work with the 
Congress on it, including helping to organize a program with 
the bipartisan Senate Whistleblower Protection Caucus, at which 
we were grateful to hear from Senator Grassley and you, Senator 
Wyden. If confirmed, I will do everything in my power to 
further whistleblower rights and protections at the NSA.
    In closing, I cannot think of an agency with a more 
important mission than the NSA and I have tremendous respect 
for the dedicated men and women who are critical to its 
success. I would be privileged to have the opportunity to lead 
the NSA OIG to further the integrity and efficiency of the 
agency's operations, which, as the NSA's name makes clear, are 
essential to our national security.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Storch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Mr. Storch.
    Ms. Patelunas, floor is yours.
    Ms. Patelunas. Thank you, Chairman Burr, Vice Chairman 
Warner and members of the Committee, for allowing me to appear 
before you as the nominee for Assistant Secretary of Treasury 
for Intelligence and Analysis. I also appreciate the 
opportunity to have met with several of you earlier this week. 
I am honored to have been nominated for this position by 
President Trump, and with the support of Secretary Mnuchin, 
Director of National Intelligence Coats, and Undersecretary of 
Terrorism Finance and Intelligence Mandelker.
    None of the steps in the journey to this Committee room 
would have been possible without my family. They have been my 
unfailing supporters throughout my career. First, my husband, 
Paul, of three decades has supported me and has eaten many 
meals alone during my 28 years at CIA. He has been my steadfast 
partner in raising my two wonderful sons, Brian and Brandon. 
Those three men have been my cheerleaders and my conscience, 
the reason I work so hard to protect our great Nation, and the 
ones who have helped me to balance being both a hard-charging 
public servant and a sports and band mom.
    My mom, Carol Keenan, was a role model as a working mother 
and ensured that I always took care of myself. My father, 
Thomas Keenan, started me on the road to public service. 
Although he lost a hard-fought battle to cancer over a decade 
ago, I feel his strong presence and his commitment to his 
country, first as an Air Force staff sergeant in Korea, 
followed by a 45-year career as a beloved high school social 
studies teacher. He is indeed smiling today.
    My brothers, Kevin and Sean, have always supported me 
personally, professionally. Sean's wonderful wife Beth and 
their three children, Ryan, Victoria, and Andrew, are here as 
well today. My sister Chris, also a teacher, and her wonderful 
husband John and four children were unable to attend today. I 
also want to thank friends and coworkers who have been so 
supportive during my career.
    The Keenan and Patelunas families have a profound love of 
God, country, and family, and have never been embarrassed by 
our patriotism and dedication to public service. This started 
with my grandfather, who served in both the U.S. Army and Navy 
and as a Philadelphia policeman. My father, uncles, father-in-
law, brother Sean, and my nephew Danny all served in the 
military. My mother, father, sister, and brother spent many 
years in public education.
    If confirmed as assistant secretary, I will continue to 
strive to be an efficient and effective public servant, to use 
taxpayer dollars wisely, to leave a lasting positive impact on 
those whom I serve and those who I serve with, to have a bias 
and a passion for action and getting the mission done. And 
finally, I will be devoted to developing a strong and expert 
workforce and to taking actions to leave that job to my 
successor in even better shape than I received it.
    Twenty eight years as a CIA analyst and manager have 
prepared me well to lead OIA. And if confirmed, I'm looking 
forward to taking on that important mission, one in which we 
cannot fail: stemming the flow of funding to those who wish to 
do our Nation harm and remaining vigilant to threats against 
our financial infrastructure.
    The threats are many, but the dedicated women and men of 
OIA are more than up to the challenge. OIA, because of its 
position within Treasury and access to expertise and 
information, has been a leader in threat finance issues. I feel 
that the office's work is becoming even more important as the 
U.S. Government is directing more efforts to take financial 
action against those who wish to do us harm.
    OIA has other important missions that I look forward to 
leading. It is very serious about information sharing and 
focuses on relationship building, partnership and integration.
    OIA has an important mission to ensure that its people, 
infrastructure and data are secure and protected from insider 
threats.
    If confirmed, I will use my expertise, leadership and 
strong analytic tradecraft to continue to position the Office 
of Intelligence and Analysis to stem current threats, as well 
as to position it well to take on future threats. I am 
committed to being an effective public servant, having a bias 
for collaborative action, working with colleagues throughout 
the United States Government, including this Committee, and 
ultimately leaving OIA even stronger than it is today.
    Thank you again for your time, and I look forward to 
answering your questions.
    [The prepared statement of Ms. Patelunas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you to both of you for your 
statements.
    Before I recognize myself for questions, let me inform the 
members that our plan is to have the Committee vote on these 
nominations on Tuesday, July 25th. Also, if any members wish to 
submit questions for the record, please do so by the close of 
business today.
    With that, Senators will be recognized for up to five 
minutes by seniority.
    Ms. Patelunas, we live in an innovative world where 
nefarious state and non-state actors continue to identify new 
and discreet ways to finance illegitimate and illicit 
activities. How's the Treasury's Office of Intelligence and 
Analysis poised to assess cash-free financial networks like 
Bitcoin and other web-based currencies?
    Ms. Patelunas. Sir, thank you for that question, and we 
discussed this a little bit yesterday. The good news is that 
there is very deep expertise in the Office of Intelligence and 
Analysis. Because their portfolios are niche analysis, they 
really are able to become deep experts in a wide variety of 
financial intelligence, both gathering and analysis, and they 
have a strong program of mentoring, of training, and they go 
out on rotations to further their knowledge. So in many of my 
discussions with the officers and the leadership over in OIA, I 
feel very strongly that we are well-positioned to go after a 
wide variety of actors, including crypto-financial issues.
    Chairman Burr. Great, thank you.
    Mr. Storch, the Inspector General at NSA is going to be 
responsible for overseeing a large organization at multiple 
physical locations, probably as challenging as any agency 
that's out there.
    How do you plan to ensure that all NSA employees and 
contractors are fully aware of the function of the NSA OIG, 
regardless of their physical location?
    Mr. Storch. Thank you very much, Chairman Burr. I very much 
appreciate the question.
    You know, it obviously is incredibly important that an OIG 
get out word to all of the employees regarding what the OIG 
does and how to provide information. I think that's 
particularly important in a world like that of the NSA.
    And so I can just tell you, what we've done at the 
Department of Justice is we've employed virtually every 
strategy available to us, honestly. We've done videos. We've 
done brochures, flyers, put things out on our Internet. We've 
done programs within the agency. We've worked with the agency 
to have material posted in buildings so that there are flyers 
on how to provide information to the OIG and also related to 
what to do if there's reprisal for doing that or for providing 
any whistleblower information. And so we've even gone as far as 
to use social media, and we have a Twitter account and we've 
tweeted out information on how to provide information.
    So, you know, no OIG can function without information and 
it's important that people within an agency like the NSA 
understand that there are avenues for them to come forward when 
they see something they think is wrong; and that they're taken 
seriously; those complaints are reviewed thoroughly; and that 
people get back to them, to the extent they can; and also that 
they don't suffer reprisal.
    So I think you employ a multi-tiered strategy to try to get 
out the word so that people understand what the OIG does, and 
you do it any way you can.
    Chairman Burr. What do see as your biggest challenge of 
being the NSA Inspector General?
    Mr. Storch. Thank you very much for the question. It's 
something I've thought a lot about, and we chatted a little 
about it yesterday. You know, I think that--I think there are a 
few. One is obviously the transition to being a presidentially 
appointed, Senate-confirmed IG. Clearly, that reflects 
Congress's intent that there be aggressive, appropriate, 
independent oversight and responsiveness to Congress in 
performing that. That's something we certainly do at the 
Department of Justice and certainly, if confirmed, something I 
would intend to do in my position at the NSA. So that'll be a 
change, but one that I'm confident, working with the good folks 
at the OIG, that we'll be able to tackle.
    Another one that we talked about yesterday is the pace of 
change and dealing with that. Particularly in a place like the 
NSA, where technology--where things are changing on a constant 
basis, it's really important that an OIG be agile, be nimble, 
and provide its reviews in a prompt fashion.
    Frankly, this is a challenge we face at our OIG and I think 
at all OIGs. I thought about it some since we chatted 
yesterday. There's a tension, I think, between OIGs being 
thorough in their work and being authoritative, but not taking 
so long to do it that it no longer is relevant or impactful.
    And so I think that challenge is particularly great at an 
agency like the NSA, which is in the business of dealing with 
technology and change and things that are moving constantly. 
And so that's something we'll have to work at. I'm sure they're 
working at it now, and hopefully I'll be able to aid in that 
process.
    And finally, you've mentioned it, I've mentioned it: 
whistleblowers. I think they're fundamental to the whole OIG 
system. You know, since I've come over to the OIG my impression 
is really that the agencies we serve are really just too big 
and their programs are just too varied for oversight to really 
work effectively without people who are at the front lines 
feeling comfortable coming forward with information.
    That doesn't mean they're always right, but we want to make 
sure that they can come forward, that they have means to come 
forward, and that they know that that's going to be taken 
seriously. I think that's a challenge for all OIGs, is getting 
that word out and not just having words and training, but 
actually doing it in action and showing to whistleblowers that 
we mean what we say, that we take the allegations seriously, 
and that we're going to pursue them appropriately.
    So those are all challenges that I think we would face. 
Hopefully I'll be well-positioned to help achieve success with 
them.
    Chairman Burr. Thank you very much.
    Vice Chairman.
    Vice Chairman Warner. Ms. Patelunas, first, we--as I'm sure 
you're aware, this Committee is deeply involved in the Russia 
investigation. I just want to reiterate, should you be 
confirmed, that we would want your cooperation as this 
Committee continues to pursue all activities related to 
Russia's 2016 intervention in our presidential elections, and 
that will mean we would be working closely with your office.
    Will you commit to continue to work with this Committee on 
that investigation?
    Ms. Patelunas. I certainly will, sir.
    Vice Chairman Warner. You've got an extraordinarily 
impressive background, 28 years at the CIA, and I see you've 
had background doing the PDB, deputy director of the Middle 
East Analysis Office, time at the National Counterproliferation 
Center. Yet you don't have formal background in finance or 
financial threats, financial crimes. Do you want to speak about 
your background, how it might be suited for this particular 
assignment?
    Ms. Patelunas. So while I don't have a background in 
terrorism threat financing, I spent about the first ten years 
of my career doing nonproliferation work and looking at North 
Korea, Russia, Iran, a variety of actors. And so a lot of what 
we did, while we looked at, you know, building of weapon 
systems, we also had to follow the money and look at how the 
weapons were built.
    So we did spend a lot of time supporting policymakers as 
they were developing sanctions packages and looking for other 
opportunities to stem the flow of money in the proliferation 
arena. So that's where my background is in that.
    Vice Chairman Warner. We do think following the money in a 
variety of these areas----
    Ms. Patelunas. Right.
    Vice Chairman Warner [continuing]. Is going to be very 
important.
    Mr. Storch, I appreciate your comments about 
whistleblowers. I share your value in that role. We have seen 
in the IC sometimes efforts where a whistleblower, rather than 
being celebrated, actually ends up with demotions or a black 
mark on their record.
    One of the tools that have been used throughout the rest of 
the Federal Government are the stay authority, which gives that 
whistleblower some protection during the period of the 
investigation. The IC is one area where we don't have that stay 
authority. I know Senator Collins and I are working on 
potentially changing that.
    Do you think that stay authority that is granted to 
whistleblowers in other parts of the Federal Government ought 
to be granted to members of the IC?
    Mr. Storch. Thank you very much for the question, Vice 
Chairman Warner.
    You know, as was mentioned from the beginning, we really 
have put a great emphasis on whistleblower issues at DOJ OIG, 
and after becoming deputy, in discussions with our IG, we 
decided I would retain the ombudsperson role because of the 
importance of that work to what we do.
    We don't have stay authority at DOJ OIG. That doesn't mean 
it's not a good idea. It's something that, honestly, I haven't 
dealt with personally. OSC, obviously, has that ability in some 
circumstances, in Title 5 cases.
    So what I would appreciate the opportunity to do, if 
confirmed, is to have the opportunity to consult with people in 
the IC regarding how stay authority would play out and what the 
different equities are there that might be present.
    You know, one of the things I always want to be careful of 
in my time in the OIG is not expressing opinions without having 
the opportunity to really review the situation and provide an 
authoritative answer. So I very much appreciate the question. 
And what I would pledge to do, if confirmed, is to look further 
into it, and would really appreciate the opportunity, and 
welcome it, to work with you and the other members of the 
Committee to discuss it.
    Vice Chairman Warner. Well, it's my initial impression that 
it is a tool that we ought to grant to the IC, but I'd be 
anxious to get your reflections when you're--once you get 
settled into this job.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thank you very much. Thanks, Mr. 
Chairman.
    You both seem to be very well-qualified for your positions. 
I look forward to supporting them.
    Mr. Storch, I'd like to ask you a question. You look like a 
pretty tough guy. And----
    Mr. Storch. My wife might disagree, but----
    Senator Feinstein [continuing]. I want to express a concern 
I have about NSA. Beginning with Mr. Snowden, we have had three 
major thefts of--people walking out with classified material. I 
have spoken to the heads of the agency on a number of occasions 
about it.
    I think some things have been done, but not adequately. 
This comes down to contractors, and the three big thefts are 
done--were performed by contractors. I'd like to ask that you 
take a look at that situation, evaluate the security at the 
agency and the ability of people to walk in and out who are 
contractors with classified materials. Would I have your 
agreement to do so?
    Mr. Storch. Absolutely, Senator. Really, the points you 
make are very well-taken. Obviously, it's a great concern 
whenever there are--whether it's contractors or others, where 
there's information that's not properly secured.
    I can't, frankly, imagine a place where that would be a 
greater concern than the NSA. And so, you know, I absolutely 
would pledge to you that that is something that we would 
explore, and happy to engage with you and the other members of 
the Committee on that.
    Senator Feinstein. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Thank you both for your professionalism. I've got a lot of 
ground to cover in five minutes, so if you all could be brief, 
that'd be great.
    Mr. Storch, to begin with you, Senator Grassley and I are 
co-chairs of the Whistleblower Caucus. And how important, in 
your view, is it that whistleblower protections apply to 
contractors?
    Mr. Storch. Thank you very much for the question, Senator 
Wyden. I mentioned--I recalled, we had the event with the 
bipartisan Senate Whistleblower Caucus, and we very much 
appreciated your and Senator Grassley's speaking at it.
    You know, I think it's important that people throughout the 
government, whether they be employees or whether they be 
employed as contractors hired by the government, feel 
comfortable coming forward with information. And honestly, 
analytically it's difficult to see why there's a difference in 
terms of the public benefit of coming forward. What may 
different somewhat--may be different somewhat, is because of 
the different relationships, what the appropriate remedies are 
in different situations.
    You know, on the Title 5 side at DOJ, as you know well, we 
have the NDAA, recently expanded, and some very expansive 
protection for contractors. On the intel side, I know PPD-19, 
part B, regarding security clearances, has been applied to 
contractors. But there are other places where I understand the 
protections are not as great.
    So it's a long answer. You asked me to be brief. The answer 
is, I recognize the importance of it. Regarding the particular 
protections, that's something that I would have to look at and 
will be happy to do so.
    Senator Wyden. You'll hear from me again on this topic. I 
think it's got to be a priority.
    Ms. Patelunas, you and I talked yesterday. You've been 
nominated for a position that stands at the center of the 
government's effort to understand Russian corruption, the way 
they move funds illicitly, and its use of shell companies and 
other forms of money laundering. Will you make this a top 
priority?
    Ms. Patelunas. As we discussed yesterday, sir, I will 
certainly go back, I will work with the women and men of OIA 
and do our best. And then, I actually welcome the opportunity 
to come back and discuss it with you.
    Shell companies are concerning. Again, they're--we need to 
make sure that things that we can't see readily by nefarious 
actors are not impacting our national security interests.
    Senator Wyden. I still want to know from you before we vote 
that this is going to be a top priority, number one.
    Number two, will you make it a top priority, even if the 
intelligence leads in the direction of Russian ties to the 
President's business, family or campaign?
    Ms. Patelunas. Sir, I will commit to making it a top 
priority. And, as an intelligence official, we always believe 
in unbiased intelligence and speaking truth to power. So I will 
take the intelligence where it leads, sir.
    Senator Wyden. Even if it leads in the direction of Russian 
ties where I mentioned, the President's businesses, family or 
campaign? I think you gave a good answer. I just want to make 
sure we nail it down.
    Ms. Patelunas. I will take the intelligence wherever it 
goes. Again----
    Senator Wyden. Okay.
    Ms. Patelunas [continuing]. Unbiased analysis is the only 
standard by which all intelligence officers----
    Senator Wyden. How are you going to go about bringing 
together foreign intelligence from the community, the 
intelligence community, with financial intelligence from other 
parts of the Treasury Department?
    The reason that that's so important is it lets us connect 
the dots here, which is absolutely key to following the money 
and really understanding how Russia and other foreign money-
laundering corrupts our country.
    So tell me, if you would, how you're going to bring 
together the foreign intelligence from the IC with financial 
intelligence from other parts of the Treasury Department?
    Ms. Patelunas. So the beauty of Treasury being embedded--or 
OIA being embedded in Treasury is that it does give us access 
to a lot of data, and we all fall under the Terrorism and 
Finance Intelligence Office under Undersecretary Mandelker, so 
that gives us access.
    The financial intelligence community is a very strong 
community. I've talked to a number of them in preparation for 
this hearing, and they work well together as a team to ensure 
that we are putting all of the resources we have available, and 
then thinking very smartly about how we pursue different leads. 
So I again look forward to the challenge and to working with 
you.
    Senator Wyden. How do you intend to work with our allies in 
bringing together the fullest possible picture of how Russian 
governments go about undermining allies' democracy?
    Ms. Patelunas. Well, it's my understanding that there are a 
lot of well-established ties already. So I look forward to 
working with allies and those who have--I mean, that's the 
national security. That's how we work in making sure that we 
have access to the appropriate data.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Patelunas. I look forward to that.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    Mr. Storch, as a prosecutor it is often the case that we 
will respond after something has happened, and then that's when 
our job kicks in. Will you talk with me a bit about how you 
would divide your priorities in this role, if confirmed, as it 
relates to prevention versus detection versus responding to a 
whistleblower in cases that are brought to your attention?
    Mr. Storch. Yes, of course. Thank you for the question, 
Senator. You know, it really is a great point. You know, as 
prosecutors you're coming in, you're coming in after the fact, 
you're looking at a set of evidence, and then you're making 
determinations as to whether to bring charges and how to pursue 
them and how they should be resolved.
    At the OIG, we do that sort of work, obviously, but we also 
have a responsibility to get out information within the agency. 
So for instance, we do things like fraud awareness briefings at 
DOJ and things like that to get out information that can help 
the agency in a preventative fashion.
    You have to be careful, obviously, because we're not part 
of the agency management. One of the things I've learned after 
all those years as a prosecutor is that, at the OIG we refer to 
the Department in the third person. We talk about ``it is doing 
that'' or ``they are doing that,'' because, even though I still 
am proud to work for the Department of Justice, I have a 
different, independent role.
    Having said that, there are ways to get out information so 
that the agency can see what's coming and perhaps, you know, 
take steps to address it.
    One other thing we do that I'll mention, which is sort of a 
hybrid, is in the course of reviews, if we come upon 
information that we think the agency needs to address 
immediately, we can issue management advisory memoranda. And as 
you I'm sure know, under the IG Empowerment Act now, if we make 
recommendations, within three days those actually are made 
public.
    And I think that's a very important tool and something that 
I've seen us using increasingly during my time at the DOJ OIG, 
because it provides us with a more time-sensitive way to get 
information to the agency.
    So a lot of the work is still reactive, but there are, I 
think, ways to get out information to people about what we're 
finding so that they can take action in a preventative way.
    Senator Harris. Great. I appreciate that.
    Mr. Storch. Yes, ma'am.
    Senator Harris. Thank you.
    And, Ms. Patelunas, you have an incredible amount of 
experience in your background, but I don't see a lot in threat 
finance. So can you talk a bit about how you will kind of get 
up to speed on that, and in particular as it relates to, for 
example, North Korea and its ballistic missile program and what 
we can do to detect and figure out where the money is coming 
from and stem the flow as it relates to sanctions and other 
methods?
    Ms. Patelunas. Well, one of the positions that wasn't 
mentioned in my broad resume was that I was the chief of the 
missile and space group, and we spent an awful lot of time on 
North Korea.
    So there are two aspects to it. The first is, of course, 
the systems development, but the second and maybe more 
important part was watching how the money flowed and all of the 
different secondary and tertiary actors they used in enabling 
that program.
    It was very challenging work. It took a lot of painstaking 
efforts to look at letters of credit and who those actors were. 
So again, it's a long part of my history in the 
nonproliferation world. Following the money is very important 
and I've spent a lot of time doing that.
    Now, on the terrorism side, I do have some work to do and I 
will look forward to lots of briefings that will be queued up 
if I'm confirmed.
    Senator Harris. And I have no doubt you will be a fast 
learner.
    Ms. Patelunas. Thank you.
    Senator Harris. And then, Leslie Ireland was dual-hatted 
and had dual responsibilities in this position and at ODNI.
    Ms. Patelunas. Correct.
    Senator Harris. What is your perspective on what this will 
be going forward if confirmed? Do you expect that you're going 
to have both responsibilities? Or are they--are we going to 
bring in someone else?
    Ms. Patelunas. So I've talked to the ODNI about it. They 
are in the middle of reviewing all of their positions, 
including NIM positions, and they're really looking at savings. 
I think they've had some feedback that maybe there's some 
opportunities for leveraging some smaller staffs.
    And so they're not going to make any decisions. They'll 
talk to me when I get on board, and so we'll see. If the 
position is still available, I think it's important for 
Treasury to have a central role in that, but Treasury has a 
very important and strong role in threat finance and so I am 
committed to working with ODNI in whatever solutions they come 
up with.
    Senator Harris. And will you commit to reporting back to 
this Committee if this becomes----
    Ms. Patelunas. Absolutely.
    Senator Harris [continuing]. Too much----
    Ms. Patelunas. Either way, I will. Yes.
    Senator Harris [continuing]. That the other position be 
filled by a separate leader?
    Ms. Patelunas. Correct.
    Senator Harris. Okay. Thank you.
    I have nothing else.
    Chairman Burr. Thank you, Senator Harris.
    Before I dismiss you, Robert, I've got one more question. 
Can you ever envision any work that the Inspector General would 
do at NSA that wasn't relevant to the oversight 
responsibilities of this Committee?
    [Pause.]
    Mr. Storch. Thank you very much for the question, Chairman 
Burr. I'm pausing because it's a difficult question. I think 
that, to the extent I understand the scope of the NSA IG's 
work, that it would be relevant to this Committee. I don't want 
to rule out, honestly, that there might be some review that 
would be conducted or some particular issue that would perhaps 
fall more closely under the jurisdiction of another of the 
committees.
    But I think as a general matter that's right. And it's 
certainly something I would be happy to discuss with you 
further regarding any specific matter should I be confirmed.
    I will tell you, and I mean this sincerely, that I will 
commit to this Committee that I will be responsive and engage 
with you, with the Vice Chairman, with the other members, on an 
ongoing basis so that you know appropriately what it is the OIG 
is doing and so that we can hear from you what it is you think 
we should be looking at.
    And so I think that much I can say definitively. With 
regard to the jurisdiction, I just--I think that's right, but 
it's something I'd want to think about a little more, and I'd 
be happy to continue that discussion.
    Chairman Burr. I appreciate that, and I hope you'll think 
about that as you conduct your business, and I'm appreciative 
of the offer. And I will reiterate what I think I said to you 
in my office and, Isabel, what I said to you. The Committee 
takes oversight extremely--as an extremely important part of 
our function. And oversight works much better when people on an 
ongoing basis share with us what it is they're working on, come 
to us early in areas that look like they're going to be 
concerns and brief the Committee as early as possible, so that 
it's not an end-of-the-process dump where all the questions 
deal with, ``why didn't you come in?''
    So I encourage you, even though, as, Isabel, I shared with 
you, that we probably have the least amount of contact with 
Treasury Intelligence and Analysis of anybody within the 
community that we deal with, that doesn't have to be the way 
going forward.
    And, as the Vice Chairman expressed, more and more the 
financial records that transfer around the world are of greater 
and greater importance to us, from a standpoint of connecting 
the dots and looking at the threats and understanding the scope 
of it.
    By the same standpoint, Robert, on your side, it's the 
individuals that search out to find that information. And our 
confidence in you that we're living within the letter of the 
law and that we're not crossing the line is absolutely crucial 
to us.
    So, to both of you, we thank you for your years of service. 
We thank you in advance for the years that you're going to give 
us in this new capacity. I thank your families for their buy-in 
and for their willingness to support you.
    I now dismiss the first panel and call up the second panel.
    [Recess from 9:55 a.m. to 9:58 a.m.]
    Chairman Burr. I'd like to call us back into session for 
the second panel.
    Sue, welcome. Sue Gordon is President Trump's nominee to be 
the next Principal Deputy Director of National Intelligence. 
Sue, congratulations on your nomination.
    I'd like to take this moment to recognize your family in 
attendance today, many of whom have served or continue to serve 
this country: your father, Vice Admiral Robert ``Bob'' Monroe--
Admiral, welcome--your mother, Charlotte, welcome; your 
husband, Jim, a career intelligence officer; your son, Jay, his 
wife Bethany, both assistant district attorneys.
    And I hear you have two captains from the Marine Corps with 
you, your daughter Casey and her husband Eric. Wave. Trust me; 
in North Carolina we love Marines.
    [Laughter.]
    Let me thank all of you for your service to the country. I 
also want to especially thank your sister Nancy for coming 
today, because I understand she was a cheerleader at my alma 
mater, Wake Forest, when I played football there. Some of my 
colleagues don't believe that that's the case, but----
    Vice Chairman Warner. You played football?
    Chairman Burr. I also want to have your teammates from the 
Duke basketball team, Barbara Krause and Margo Walsh--I welcome 
them. I'm also pleased when the ACC is so well represented.
    Our goal in conducting this hearing is to enable the 
Committee to consider Ms. Gordon's qualifications and to allow 
for thoughtful deliberation by our members. She already has 
provided substantive written response to questions presented by 
the Committee and its members. Today, of course, members will 
be able to ask additional questions and hear from Ms. Gordon in 
open session.
    Sue Gordon has served our Nation as a member of the 
intelligence community for more than 30 years. I'd like to note 
that before Sue launched her career she wisely sought wisdom in 
North Carolina, where she earned her bachelor of science degree 
from Duke University. She reminded me that she could equip me 
with a darker blue tie today. Had I actually been thinking, 
there's no way I would've worn this one today.
    [Laughter.]
    After joining the CIA's Directorate of Intelligence in 
1980, Sue worked her way up the ranks and ultimately served in 
various management positions before becoming leader in the 
CIA's Directorate of Science and Technology.
    In 1998, Ms. Gordon became Special Assistant to the 
Director of the Central Intelligence Agency and was responsible 
for designing and implementing In-Q-Tel, a private nonprofit 
company whose primary purpose is to deliver innovative 
technology solutions for the intelligence community.
    Sue rounded out her career at the CIA by serving as the 
Director of the Directorate of Support and the Director of 
Information Operations Center and finally as CIA's director of 
senior--Director's Senior Advisor on Cyber.
    In 2015, Ms. Gordon became the Deputy Director of National 
Geospatial-Intelligence Agency. In that role, Sue has ably 
assisted the director in fulfilling the NGA's mission to 
provide timely, relevant and accurate and actionable geospatial 
intelligence to the intelligence community, the Department of 
Defense, the President, and this Committee.
    Sue, you've been asked to help lead the intelligence 
community at a time of profound threat and challenge. As I said 
during Director Coats's nomination hearing, we're facing 
threats from state and non-state actors alike and are engaged 
in a robust debate at home on the scope and the scale of 
intelligence objectives and collection and what authorities are 
right and appropriate and lawful.
    I expect you to be a forceful advocate for the intelligence 
community in those discussions, while maintaining an unwavering 
respect for the rule of law. And I have no question you will. I 
have complete trust that you'll lead the community with 
integrity and will ensure that the intelligence enterprise 
operates lawfully, ethically, and morally.
    Sue, our Committee has had the opportunity to work with you 
many times during your career, and I believe your breadth of 
service in so many areas of the intelligence community, as well 
as your commitment to serving our Nation, make you a natural 
fit to help Director Coats lead our intelligence community.
    As I told Dan Coats, I can assure you that this Committee 
will continue to faithfully follow its charter and conduct 
vigorous and real-time oversight of the intelligence community, 
its operations and its activities. We'll ask difficult and 
probing questions to you and your staff, and we'll expect 
honest, complete and timely responses.
    I look forward to supporting your nomination. I look 
forward to having you as a partner with Director Coats, and I 
will ensure to you that we are going to consider you without 
delay. I want to thank you again for being here, for your years 
of service, and to your family who has committed as well to 
that service.
    I now recognize the Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    It's also my great honor to welcome Sue, someone who's 
helped educate me as I have learned this--learned about the 
intelligence community. Matter of fact, Mr. Chairman, I would 
like to enter into the record a publication called The Cipher 
Brief, the title of which is ``The Great Expectations for Susan 
M. Gordon,'' where she is called--``Gordon might just be the 
woman for the job.'' She's ``said to be widely liked by members 
of both political parties, deeply respected,'' ``straight 
shooter,'' and a whole series of other wonderful compliments. 
So if you screw up, this is going to come back and bite you.
    [Laughter.]
    Chairman Burr. So ordered.
    [The material referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Vice Chairman Warner. But I'd like to enter that into the 
record.
    And I just want to reiterate what the Chairman said. I 
think you're going to be a great partner with Dan Coats. We've 
talked about IC ITE and how important trying to get that 
implemented, that process implemented will be. We've talked 
about acquisitions, particularly in terms of overhead, and very 
much appreciate the fresh approach you brought at NGA; and now, 
in this new, enhanced role, how we will try to bring that same 
kind of forward-leaning acquisition process to NRO and the 
balance of the community.
    I also think one of the things that we're going to need to 
work through is the security clearance process, how we move 
people from the community in and out as they move from public 
sector to private sector and back, back, back and forth.
    Again, I can't think of a better person to partner with Dan 
Coats, and look forward very much to supporting your 
nomination.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Sue, would you please stand? Raise your right hand. Do you 
solemnly swear to tell the truth, the whole truth and nothing 
but the truth, so help you God?
    Ms. Gordon. I do.
    Chairman Burr. Please be seated.

TESTIMONY OF SUSAN M. GORDON, NOMINATED TO BE PRINCIPAL DEPUTY 
               DIRECTOR OF NATIONAL INTELLIGENCE

    Chairman Burr. Sue, before we move to your statement, I'd 
like to ask you five standard questions the Committee poses to 
each nominee who appears before us. They require a simple yes 
or no answer for the record.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Ms. Gordon. Yes.
    Chairman Burr. If confirmed--would you cut on your 
microphone, just to make sure he picks it up.
    If confirmed, do you agree to send officials from your 
office to appear before the Committee and designated staff when 
invited?
    Ms. Gordon. Yes.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the Committee for it to carry out 
its oversight and legislative responsibilities?
    Ms. Gordon. Yes.
    Chairman Burr. Will you ensure that your office and your 
staff provide such materials to the Committee when requested?
    Ms. Gordon. Yes.
    Chairman Burr. Do you agree to inform and fully brief to 
the fullest extent possible all members of the Committee of 
intelligence activities and covert action, rather than just the 
members--the Chairman and the Vice Chairman?
    Ms. Gordon. Yes, I will.
    Chairman Burr. Thank you very much.
    We'll now proceed to your opening statement. The floor is 
yours.
    Ms. Gordon. Thank you, Mr. Chairman, Mr. Vice Chairman, 
members of the Committee. I am honored to appear before you as 
the nominee for the Principal Deputy Director of National 
Intelligence. I'd like to begin by thanking the President for 
nominating me to this position and Director Coats for his faith 
in my experience and my passion to help him lead the 
intelligence community.
    I love America. I love being here today as we do the 
Nation's work, as our founders envisioned. I never thought I'd 
say that I would enjoy being here, testifying in front of this 
Committee, to anticipate your gentle, gentle questioning----
    [Laughter.]
    But I do.
    As a career intelligence officer, to lead the women and men 
of the world's finest intelligence enterprise in service of the 
Nation at a time of challenge is both humbling and exciting.
    We are who we began as. Today, I'm so pleased to be joined 
by my family, some by birth, some by choice, who helped bring 
me to this day:
    My mom and dad, who instilled in me a love of country, the 
drive to always do my very best, and the responsibility to work 
for something bigger than myself;
    My big brother and sister, who allowed me to live through 
childhood and who keep me in line to this day;
    My husband, who has been the love of my life and my best 
friend for actually today 37 years. And the fact that he is 
also a career intelligence professional means we not only get 
to share our life, but our life's work.
    My remarkable children and their spouses, as you mentioned, 
two assistant district attorneys from Houston and two Marine 
pilots currently stationed in Southern California, who have 
also chosen to serve their term for their country;
    My Duke basketball teammates, who taught me how to be 
depended upon and to learn how to depend on others, and to win 
with respect and to lose with dignity;
    And finally, my intelligence community colleagues, who are 
really the heroes of my story. It is their work that brings me 
here. Thank you all for standing with me today, as you always 
have.
    These are interesting times, as you mentioned, Mr. 
Chairman, as the Nation faces a wide variety of security 
challenges, whether it's the cyber threat faced by an ever-
expanding digital environment, the threat posed by nation-
states like Russia, China, North Korea, and Iran, the threat of 
terrorist groups who continue to threaten the United States and 
her interests, or simply the pace of change that demands we 
move ever faster.
    The intelligence community is challenged every day to 
deliver and at its best we provide decision-makers with the 
advantage to meet these and all threats and identify the 
opportunities to act before events dictate.
    I'm incredibly proud to be considered for this position at 
exactly this moment. I feel that perhaps my broad experience, 
my love of a good challenge and my reputation for finding new 
solutions, my penchant for rolling up my sleeves and getting to 
work, and my understanding that the only way we get things done 
is through our people and with them will be useful.
    It may seem surprising to some that a career Central 
Intelligence Agency officer would extol the virtues of the 
Office of the Director of National Intelligence. But I believe 
it performs a vital role in ensuring that the Nation always has 
access to the best intelligence, delivered at exactly the right 
time.
    The intelligence community best serves the Nation when we 
work together, and leveraging the work of the community and 
integrating it at its highest level is exactly where the ODNI 
is meant to perform.
    When Director Coats appeared before you he described the 
role of the DNI as a head coach, and I think that's an apt 
analogy. So let me briefly share my view of the role of the 
assistant coach, the principal deputy, and to offer some 
perspective on what I would bring to the job if confirmed.
    The first role is integration, work well begun by my 
predecessor, but no less a focus today. It is necessary, but 
not sufficient, that each organization delivers excellence in 
its responsibility and craft. But we must also be able to share 
that work appropriately, in a seamless, timely fashion, so that 
the community and consequently the Nation, benefits from the 
collective.
    My more than two decades of service at the CIA across 
various disciplines--analysis, technology, operations and 
support--and my last two years as deputy director of the 
National Geospatial-Intelligence Agency have allowed me to see 
the strengths of various disciplines and organizations and the 
power of using them together.
    I understand different risk equations. I see how tactical 
military requirements both differ from and complement strategic 
intelligence, and I know how to find common ways forward.
    My second role is to support innovation. The community not 
only has delivered great capability to the Nation, but what it 
brings to bear today is the best I've ever seen. And yet it is 
not enough. We cannot stand still, lest we lose our advantage; 
and we must improve at an increasing rate, because the world is 
turning ever faster and global connectedness is transforming 
our advantage from being grounded simply in technology, but 
more in its clever use.
    If confirmed, I will help create the impetus and the room 
for this to happen, and I will look forward to this Committee 
helping in this necessary quest.
    Somewhere along the way I've become comfortable with 
leading change, sometimes big change, like asking a group of 
private citizens to form a company like In-Q-Tel; sometimes 
smaller change, like changing the support model of how we 
provide facilities, finance, and security worldwide so it can 
be more effectively and efficiently delivered; and sometimes 
simply changing perspective that allows geospatial intelligence 
to both benefit from and provide benefit to work going on in 
the open.
    I know that if you focus on maintaining relevance rather 
than simply preserving the status quo, you can always find your 
way.
    The third role and my favorite is leading the women and men 
of the intelligence community in creating the environment in 
which they can thrive. I've had the joy of leading thousands of 
incredible intelligence professionals, from those leading 
operations to those inventing our future to those who support 
mission execution.
    Our people are our greatest asset, our base of talent, and 
the real answer to what we need. Our future is bright because 
more and more, better and better, continue to arrive at our 
door and ask to serve.
    If I'm confirmed as the PDDNI, I intend to be their 
champion, ensuring they have the opportunities, tools and 
support they need to continue the great work of this Nation. 
And I will advance diversity and inclusion, not simply because 
it is decent, but because I know that, in order for us to 
deliver our best, we must create an environment where everyone 
can bring their best, truest selves to the task at hand.
    I've been an LGBTQ ally and champion for years and the 
experience has let me see the magic that happens when people of 
all races, religions, sexual orientation and experiences 
receive our support.
    In closing, I'd like to thank the Committee again for your 
consideration of my nomination. If confirmed, I intend to work 
with all of you with clarity, candor and energy to make sure 
that the IC has the support it needs to tackle whatever the 
opposing teams bring our way; that the ODNI is focused only on 
its primary mission and we deliver on that mission effectively 
and efficiently; and that the Congress has the information 
needed to conduct necessary oversight responsibilities.
    I'm proud to be here, to represent the women and men of the 
intelligence community and to work alongside Director Coats to 
lead us. This is a humbling experience and I'm grateful for the 
opportunity, and I look forward to your questions.
    Thank you.
    [The prepared statement of Ms. Gordon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Vice Chairman Warner [presiding]. I believe Senator King 
will go first.
    Senator King. I appreciate it.
    Perhaps you could ask the IC if they could design a way we 
could do our hearings here without conflicts. Both Senator 
Heinrich and I have bills before another Committee that we have 
to go and----
    Ms. Gordon. Then I will be clear and direct.
    Senator King. Thank you. I appreciate that.
    First, I just want to emphasize, number one, how pleased I 
am that you're undertaking this position, given your history 
and background. And I think, as you testified, you come at a 
particularly important moment. The threats are varied and vast, 
complex. You're joining Director Coats, who all of us know 
well, and who is extremely able and thoughtful, but does not 
have the deep background in the IC that you have. And I think 
you'll make an extraordinary team.
    My one question of concern is at the beginning of the new 
Administration there was a lot of talk about perhaps abolishing 
the Office of the Director of National Intelligence. A fellow 
named Steve Feinberg was assigned to look into it.
    So my first question is, how do you feel as an intelligence 
professional about the role of this office? And, secondly, have 
you met with Mr. Feinberg? Has he--have you had any exchanges 
with him? Do you know whether he's met with Mr. Coats? Where 
does that question stand?
    So first question is your views on the role of this, not 
your position necessarily, but the ODNI generally? And then, 
secondly, where this analysis stands.
    Ms. Gordon. Thank you, Senator King, for your question. I 
see the role of the Office of the Director of National 
Intelligence pretty simply, as I stated. It's to make sure that 
we always deliver the best intelligence that all the members of 
the community have to offer at the right time, unbiased, 
brought together at the moment of decision so that we can make 
it.
    Senator King. Given the fact that there are 16 agencies, do 
you think it's necessary to have such an institution like the 
ODNI, which was created as I understand it after September 
11th, because of the problem of lack of communication between 
the agencies?
    Ms. Gordon. As a CIA officer, I think, when it was formed I 
couldn't imagine why we needed something. Heck, we were the 
Central Intelligence Agency; how could you need anything more 
than that? That was formed, interestingly, with kind of the 
same premise of bringing other intelligence together.
    As I look at it now, the integrative functions that the 
ODNI provides, particularly over time, have been remarkable in 
bringing us together in ways that we couldn't have. And I'll 
just cite one example of--the FBI at the same table, from an 
intelligence perspective, has allowed us to tackle some of our 
most difficult threats because we have the mechanisms to bring 
them together. DHS similarly.
    As we look at cyber threats, if we aren't partners with 
those organizations as well and have the ability to have them 
in the same room--but you need an organization to drive this to 
happen. And you don't want different types of intelligence to 
be subordinate to any one opinion of what the right thing is. 
And I think that is the right, proper, just role. And then 
there are things that we do to ensure that that happens.
    What I think everyone has been concerned about is, have we 
grown too big? Do you over time suck up too many other 
responsibilities, exceed your brief? Director Coats is 
committed to looking at it. I think he has suggested to me that 
that will be a special opportunity I have, to lead that look.
    But do I believe we need it in order to make sure that we 
can integrate the best we have and deliver it, rather than 
putting a bunch of data on people's desks--but rather, give the 
best chance? I think so.
    To your second question, sir, about any presidential review 
that might or might not happen, I don't believe that that has 
taken shape yet. I'm a career intelligence officer. I believe 
that scrutiny is a good thing. If that were to come to bear----
    Senator King. That's what you do--that's what you do for a 
living.
    Ms. Gordon. It is, right. And you have to be comfortable 
with it. It's not always pleasant, but it is what makes us 
better, whether it is program reviews or audit or IG 
inspectors, Congressional oversight, or just questioning that 
the American people have of us.
    Senator King. You haven't met with Mr. Feinberg? Or have 
you?
    Ms. Gordon. I have, briefly, before I was nominated, as he 
was talking to members of the intelligence community. But I 
don't believe that that has been resolved yet. If it happens, 
we'll absolutely work with him, because we share a quest. But I 
don't have any sense of whether or how it will shape. And so 
any comment I might have would be premature.
    Senator King. Thank you. Thank you very much, and----
    Ms. Gordon. Thank you, Senator.
    Senator King [continuing]. Thank you again for your 
willingness to serve.
    Thank you, Mr. Chairman.
    Chairman Burr. Vice Chairman.
    Vice Chairman Warner. Two or three quick questions. One, 
you know, obviously this Committee's very engaged and involved 
in the investigation into Russian meddling in our 2016 
elections. Should you be confirmed, we'd want your commitment 
that you will work with this Committee as we need documents or 
other information.
    Ms. Gordon. Director Coats, I think, has been very clear in 
his support, and I absolutely support that.
    Vice Chairman Warner. Excellent.
    One of the areas that we discussed--a little nerdy but 
terribly important--and that's the IT backbone for the whole 
intelligence community. IC ITE was something that Director 
Clapper was a huge advocate of. It's our hope that you'll take 
on that responsibility and see that mission through to its 
completion. Comments?
    Ms. Gordon. Yeah. I don't see how we get to our future if 
we don't complete the work of IT modernization to make sure we 
have the infrastructure that allows us to take advantage of 
technologies that are appearing that are useful, and doing so 
in a secure, managed fashion across all our organizations. 
There is nothing diminished about that imperative.
    I do think that there are--there's work we need to do to 
increase the rate of adoption, because we have answers we need 
to provide and partners and customers we need to reach when 
this is in place.
    So not only will you have my commitment to continue it, but 
I will look forward to coming back to this Committee and talk 
about how we might advance it at even a greater rate.
    Vice Chairman Warner. Well, this will be the ultimate lay-
up question. You----
    Ms. Gordon. Yes, Duke women's basketball will win the 
national championship.
    [Laughter.]
    Vice Chairman Warner. My father, who's a UConn women's 
basketball fan, might disagree.
    But, obviously you've been a champion at NGA in terms of 
smaller sats and commercial use. One of the things I want to 
give public accolades to the Chairman, he's really become a 
huge believer, particularly as we try to get our requirements 
done in a much faster way, move in a much more aggressive way.
    Stephanie O'Sullivan carried on a lot of that champion role 
when she fulfilled the principal deputy's role. My hope would 
be that you would continue to be that advocate. Do you want to 
speak to that briefly?
    Ms. Gordon. I will. I've gone on the record many times 
saying that one of our greatest competitors is simply time, and 
that's because intelligence is about advantage and you just 
have to keep up to continue to provide advantage.
    For as great as our intelligence collection capabilities 
are--and they are stunning, eye-watering, and we deliver great 
security to this Nation--you just can't stand still. And if 
you're not excited about what's happening in the private sector 
and the opportunity that affords for us to not only provide 
additive capability, but imagine how we can do things 
differently, you're just not thinking.
    You will have my commitment to continue to push that, even 
as we both recognize that the confidence, availability, and 
reliability of the data that those things connect is always 
something that we'll have to balance the speed with which we 
might pursue things. But you and I will be absolutely pushing 
on that same rope together.
    Vice Chairman Warner. Well, now that the minority has given 
you totally lay-up questions, I'll turn the floor back over to 
the Chairman.
    [Laughter.]
    Ms. Gordon. But Wake Forest might do well, too.
    [Laughter.]
    Chairman Burr. I've never known Warner to suck up quite as 
much as he just did.
    [Laughter.]
    Sue, you referenced yourself to Dan's assistant coach. Let 
me just remind you, they don't know anything about college 
sports in Indiana.
    [Laughter.]
    Listen, a few questions: Where do you see the most 
opportunity to innovate within the intelligence community?
    Ms. Gordon. One easy answer: This is a data world, not a 
world of data scarcity, but data abundance. It's what 
intelligence is. The data that are available just should make 
us drool with excitement, but only if we can command it in a 
way that is not the manual processes that have dominated our 
past.
    So to me artificial intelligence, automation, augmentation, 
those things that allow us to look at data and be able to turn 
it from noise into some signal that then our analysts can look 
at and advance is probably where, not only is it the greatest 
opportunity because of what is going on in the private sector 
for the exact same reason, but also our greatest need.
    There are just no ways for us to continue to understand all 
that we have available to us if we don't advance in these 
technologies. So I think that's really the one.
    The more surprising answer might be that I think innovation 
in business processes--the world has turned so much that the 
ways in which we do things are driven by what we constructed at 
a time that is some time past. So looking at our business 
processes, our policies, the way in which we move things, move 
people, consider security, I think are all the things in which 
we can innovate in order to achieve the same objective that you 
already talked about, which is speed and efficiency.
    So those two areas I think are great, but it's in all. It's 
in all, and how we think about training our officers and about 
how we move them, about how we consider classification. This is 
a great moment, because the need is so sure and the 
opportunities provided by that which is available should allow 
us to find some great solution, if we just have the will and 
time.
    Chairman Burr. I agree with you, and I think the Committee 
does, on data. I will share with you one concern that I have. 
When we came off of September the 11th, the buzzword then was 
``analytics.'' We've got to get more analysts. And we created 
analysts in every inch of the whole of government. And I've 
questioned for the past number of years whether we've got 
tremendous duplication.
    As I look at the ability to manage and utilize big data, I 
begin to see different streams of funding from different 
agencies. I think it's important from an ODNI standpoint that, 
at least through the IC community, that there be a coordinated 
approach to it where we don't look back in hindsight and say, 
``We had different agencies duplicating the work,'' and that 
that's something that you will take on as a primary role, to 
make sure that all of the efforts complement themselves.
    And I know you're--as you leave NGA, you leave at a time 
where I think there's a proposal on the table for a very unique 
approach----
    Ms. Gordon. Yes.
    Chairman Burr [continuing]. To leveraging data that is 
available and open for individuals that need data to build 
their base, and maybe a trade-off of them sharing their 
algorithms with NGA. So it's a fascinating approach that I 
think I want to talk to you offline, not just about that, but 
how we take In-Q-Tel and is there an additional role for In-Q-
Tel to play in the whole of government. And as Mark and I have 
talked several times, we have no technology clearinghouse 
within the whole of government.
    Ms. Gordon. Right.
    Chairman Burr. Every agency considers that they've got 
their own IT people to do that. I'm hard-pressed to find 
anything that government does well, and I'm being serious when 
I say that, in business practice.
    Ms. Gordon. If you'll allow, I--that's what I was alluding 
to in terms of our business processes. I think public-private 
partnership is something that the intelligence community has 
done exceptionally well over its history.
    As a matter of fact, I'm old, so I've seen a lot, and I can 
tell you I can't think of any of the accomplishments of my 
career that I have seen that haven't been done without a 
partner from the private sector. We've done it differently over 
time. Around World War II we formed FFRDCs, where we brought in 
talent and held it essentially for government use, in a special 
place so that it was available to us.
    In the seventies, it was going to a company and forming 
Skunk Works, so that we could do something remarkable that then 
the U.S. government would have unique advantage.
    In the nineties, with In-Q-Tel, we were like, ``well, that 
model isn't going to work for the government to hold the 
innovation.'' And I think we now need to continue to look for 
ways that we solve the value proposition of both ends in order 
to advance us.
    But this moment, because of what is so openly available, we 
should be able to do it, but I agree with you we should do it 
in an organized fashion. There are times when a thousand 
flowers should bloom, when you have great uncertainty. There 
are other times when you know you need to advance that you 
should do so in a purposeful fashion and to husband your 
resources, and I think that's a great example of what the ODNI 
can provide value for.
    Chairman Burr. I'm going to approach the conversation on IC 
ITE a little bit different than Mark did.
    Ms. Gordon. Okay.
    Chairman Burr. In our conversation, I told you I was 
charging you----
    Ms. Gordon. Yes.
    Chairman Burr [continuing]. Personally with making sure 
that this was implemented and that you shared with us any 
process hurdles that are in the way or funding limitations, 
that we could clear the brush to allow this to become reality. 
So I hold----
    Ms. Gordon. I so commit.
    Chairman Burr [continuing]. I hold you to it.
    One other area, just for any comments that you might have. 
The community is plagued with leaks right now. I would say the 
Committee has had a rash of problems that we haven't 
experienced in the past. And from a Committee to the IC 
community, I think the integrity of this Committee's--of how we 
handle things is absolutely vital to the willingness to share 
information with us.
    By the same standpoint, when we see, as Senator Feinstein 
alluded to in the last panel, three significant breaches from 
the NSA, that brings great concern and consternation to the 
Committee, and I know it does to the whole IC community.
    Do you commit to us, from a standpoint of the ODNI's 
efforts, to try to get into this leak problem and figure out 
how we plug this?
    Ms. Gordon. Senator, I believe that unauthorized 
disclosures of classified information are always damaging. 
There are so many processes by which we can serve the American 
people transparently through oversight that leaks, people 
deciding to go their own way, are not in this Nation's 
interests. And we will be a good partner with you on addressing 
that issue.
    Chairman Burr. Thank you. I know the Vice Chairman and I 
would love to get with you at some point, once you've got your 
sea legs there, to talk about some concepts that we have for 
the whole of government that minimize the potential for tools 
that are used today.
    And I find it odd, but I'm not surprised, that I think this 
Committee is probably more esteemed in technology, current 
technology, than any Committee on Capitol Hill, not because 
we're jurisdictionally there, but because it's that same 
technology that presents us the greatest threat around the 
corner. So we've had to--we've had to spend a lot of time 
learning it.
    Ms. Gordon. I do think there--I look forward to, when I 
have my sea legs at the end of next week----
    [Laughter.]
    Coming to see you. But seriously, I think it's a problem, 
but I think there are a number of things going on that offer 
great potential, and we've talked about it before.
    You know, cloud computing is sometimes such a buzzword, but 
there is great security potential in that advance; continuous 
evaluation, looking at our employees, looking at some of the 
insider threat work that's going on.
    I think there are a number of good things, from 
technological solutions, to policy solutions, that should give 
us increasing advantage over this. But I look forward to coming 
and speaking with you, hearing your ideas and then advancing 
those.
    Chairman Burr. Great. Thank you very much.
    Seeing no additional members that are here to ask you the 
tough questions that Senator Warner didn't, let me once again--
--
    [Laughter.]
    Ms. Gordon. I'm so disappointed, sir.
    Chairman Burr [continuing]. Let me once again thank you. I 
thank your family for their service to the country, and can 
tell you personally that we are just absolutely thrilled to 
have you in this new role. It's my expectation that we will 
move your confirmation as quickly as we possibly can and that 
Dan will have a committed assistant coach there.
    This hearing's now adjourned.
    [Whereupon, at 10:34 a.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
